No.

IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY MARR,— PETITIONER,
VS.
MARK INCH,
ASHLEY MOODY—RESPONDENT^).
PROOF OF SERVICE
I, Timothy Marr: DC No.: 252162, do swear or declare that on this date,
2021, as
required by Supreme Court rule 291 have served the enclosed MOTION FOR LEAVETOPROCEED IN
FORMA PAUPER/S and PETITION FOR A WRIT OF CERTIORARI

on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid.
The names and addresses of those served are as follows:
Office Of the Attorney General, 3507 E. Frontage Rd., Suite 200, Tampa, Florida 33607.
J declare under the penalty of perjury that the foregoing is true and

correct. Executed on Mu

at

2021.

/j-jd^UA
Timothy M:

C #: 252162

